No.

IN THE
SUPREME COURT OF THE UNITED STATES

GARY L. WORKMAN
PETITIONER
V.
WARDEN JASON KENT, et al.
RESPONDENT
PROOF OF SERVICE
I, Gary L. Workman, do declare that on this date, June 18, 2021, as required
by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United states mail properly addressed to each of them and with
first-class postage prepaid or by delivery to a third party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Paul D. Connick, Jr.
District Attorney for Jefferson Parish, Louisiana
200 Derbigny St. 5th. Floor
Gretna, LA 70053
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 18, 2021.
ary L. Workman
21

As required by Supreme Court Rule 33.1(h), I certify that the document
contains 6,924 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 18, 2021.

•4*ary L. Workman/ Petitioner

